No.20A95
IN THE

6upreme QCourt of tbe Bntteb &tatei
REVEREND KEVIN ROBINSON AND
RABBI YISRAEL A. KNOPFLER,

v.

Applicants,

PHILIP D. MURPHY, IN HIS OFFICIAL CAPACITY AS THE
GOVERNOR OF NEW JERSEY, ET AL.,

Respondents.

On Emergency Application for Writ of
Injunction to the Honorable Samuel Alito,
Associate Justice of the United States Supreme
Court and Circuit Justice for the Third Circuit
MOTION FOR LEAVE TO FILE BRIEF AS
AMICI CURIAE AND BRIEF OF
THE AMERICAN MEDICAL ASSOCIATION
AND THE MEDICAL SOCIETY OF NEW JERSEY
AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the brief contains
2,888 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
The motion contained within this publication has 239 words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 3, 2020.

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

